Case: 20-15110, 04/20/2021, ID: 12080726, DktEntry: 40, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
APR 20 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

WILLIAM A. GRAVEN, named as Will
Graven,
Plaintiff-Appellant,

No.

20-15110

D.C. No. 2:19-cv-04586-SPL
District of Arizona,
Phoenix

v.
ORDER
STATE OF ARIZONA,
Defendant-Appellee.
Before:

WALLACE, CLIFTON, and BRESS, Circuit Judges.

We treat Graven’s motion for reconsideration and motion for reconsideration
en banc as a petition for panel rehearing and petition for rehearing en banc.
The panel has voted to deny the petition for panel rehearing.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. See Fed. R.
Civ. P. 35.
Graven’s petition for panel rehearing and petition for rehearing en banc
(Docket Entry No. 32) are denied.
All pending motions (Docket Entry Nos. 33-37) are denied.
No further filings will be entertained in this closed case.

FILED

NOT FOR PUBLICATION

DEC 16 2020

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
WILLIAM A. GRAVEN, named as Will
Graven,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 20-15110
D.C. No. 2:19-cv-04586-SPL

Plaintiff-Appellant,
MEMORANDUM*

v.
STATE OF ARIZONA,
Defendant-Appellee.

Appeal from the United States District Court
for the District of Arizona
Steven Paul Logan, District Judge, Presiding
Submitted December 2, 2020**
Before:

WALLACE, CLIFTON, and BRESS, Circuit Judges.

William A. Graven appeals pro se from the district court’s judgment
dismissing his action alleging federal claims. We have jurisdiction under 28
U.S.C. § 1291. We review de novo a dismissal on the basis of Eleventh
Amendment immunity. Cholla Ready Mix, Inc. v. Civish, 382 F.3d 969, 973 (9th

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Cir. 2004). We affirm.
The district court properly dismissed Graven’s action against the State of
Arizona as barred by the Eleventh Amendment. See Pennhurst State Sch. & Hosp.
v. Halderman, 465 U.S. 89, 100 (1984) (Eleventh Amendment immunity applies to
states and their agencies or departments “regardless of the nature of the relief
sought”).
All pending motions are denied.
AFFIRMED.

2

20-15110

Case 2:19-cv-04586-SPL Document 34 Filed 01/23/20 Page 5 of 7
Case 2:19-cv-04586-SPL Document 30 Filed 01/13/20 Page 1 of 3

WO

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
William A. Graven,
Plaintiff,
vs.

No. CV-19-04586-PHX-SPL
ORDER

State of Arizona,
Defendant.
Pending before the Court is Defendant State of Arizona’s Motion to Dismiss (Doc.
11). For the following reasons, the motion will be granted.
I.

Background
Plaintifnbmu^Mbi^caus^factio^agaii^^h^tat^^Arizona^o^nonetag

damage^ase^r^h^ailuretojndic^nel^^^ilme^^JocaHawJmr^^^gg^gnj^
^artajg^o^dlege^OTmmal^g^
II.

Legal Standard
Defendant has moved to dismiss Plaintiffs First Amended Complaint pursuant to

Federal Rules of Civil Procedure 12(b)(1) and 12(b)(6). Defendant argues the First
Amended Complaint is barred by the Eleventh Amendment, res judicata, Arizona’s Notice
of Claim Statute, and the applicable statute of limitations. Defendant further argues that
Plaintiff lacks standing and fails to state a valid claim for relief.
“If the court determines at any time that it lacks subject-matter jurisdiction, the
court must dismiss die action.” Fed. R. Civ. P. 12(h)(3); Augustine v. United States, 704

Case 2:19-cv-04586-SPL Document 34 Filed 01/23/20 Page 6 of 7
Case 2:19-cv-04586-SPL Document 30 Filed 01/13/20 Page 2 of 3

1

F.2d 1074,1077 (9th Cir. 1983) (“The defense of lack of subject matter jurisdiction cannot

2

be waived, and the court is under a continuing duty to dismiss an action whenever it appears

3

that the court lacks jurisdiction.”).

4

A Rule 12(b)(1) jurisdictional attack may be facial or factual.
In a facial attack, the challenger asserts that the allegations
contained in the complaint are insufficient on their Face to
invoke federal jurisdiction. By contrast, in a factual attack, the
challenger disputes the truth of the allegations that, by
themselves, would otherwise invoke federal jurisdiction.

5
6
7
8

Safe Air for Everyone v. Meyer, 373 F.3d 1035, 1039 (9th Cir. 2004). A jurisdictional

9

challenge based on Eleventh Amendment immunity is properly raised in a 12(b)(1) motion

10

to dismiss for lack of subject matter jurisdiction. See In re Jackson, 184 F.3d 1046, 1048

11

(9th Cir. 1999) (“Eleventh Amendment sovereign immunity limits the jurisdiction of the

12

federal courts and can be raised by a party at any time during judicial proceedings or by

13

the court sua sponte.”); see also Halstead v. Motorcycle Safety Found., Inc., 71 F.Supp.2d

14

464,468 n.l (E.D. Penn. 1999) (“The Eleventh Amendment is a jurisdictional bar which

15

deprives federal courts of subject matter jurisdiction and therefore a motion raising

16

Eleventh Amendment immunity may properly be considered a motion to dismiss the

17

complaint for lack of subject matter jurisdiction under Fed. R. Civ. P. 12(b)(1).”). In

18

resolving such a facial attack, the Court accepts the well-pleaded factual allegations as true

19

and construes them in the light most favorable to the nonmoving party. DaVinci Aircraft,

20

Inc. v. United States, 926 F.3d 1117,1122 (9th Cir. 2019).

21

III.

Eleventh Amendment

22

The Eleventh Amendment states that “[t]he judicial power of the United States shall

23

not be construed to extend to any suit in law or equity, commenced or prosecuted against

24

one of the United States by Citizens of another State, or by Citizens or Subjects of any

25

Foreign State.” U.S. Const., Amend. XI. Accordingly, absent waiver, consent, or an

26

express abrogation of sovereign immunity by Congress, a state is immune from federal

27

court suits brought by their own citizens or those of another state. Lindsey v. Matayoshi,

28

950 F.Supp.2d 1159, 1165 (D. Haw. 2013). Here, because Plaintiff brings a claim for
2

Case 2:19-cv-04586-SPL Document 34 Filed 01/23/20 Page 7 of 7
Case 2:19-cv-04586-SPL Document 30 Filed 01/13/20 Page 3 of 3

1

monetary damages against the State itself, and because Plaintiff has failed to argue that the

2

claims fall within any legitimate exception, the Court finds that Plaintiff’s entire First

3

Amended Complaint is barred by the Eleventh Amendment. Plaintiff has not provided the

4

Court with any basis to find otherwise.1 See Comm, to Protect our Agric. Water v.

5

Occidental Oil & Gas Co., 235 F.Supp.3d 1132, 1161 (E.D. Cal. 2017) (“An entity

6

invoking Eleventh Amendment immunity generally bears the burden of asserting and

7

ultimately proving those matters necessary to establish its defense. However, once a

8

defendant meets this burden, the burden shifts to plaintiff to demonstrate that an exception

9

to Eleventh Amendment immunity applies.” (internal citations omitted)).

10

Accordingly,

11

IT IS ORDERED that Defendant State of Arizona’s Motion to Dismiss (Doc. 11)

12
13
14
15

is granted and this action is dismissed in its entirety.
IT IS FURTHER ORDERED that the Clerk of Court shall terminate this action
and enter judgment accordingly.
Dated this 13th day of January, 2020.

16
✓

17

Honorable Steven P. Lrfgan
United States District lodge

18
19
20
21
22
23
24
25
26
27
28

i Because the Court finds that die claims are barred by the Eleventh Amendment,
the Court declines to address the remaining arguments in Defendant’s Motion to Dismiss.

3

